   October 15, 2004




Financial Management
Promptness of FY 2005 First
Quarter DoD Payments to the
Department of the Treasury for
District of Columbia Water and
Sewer Services
(D-2005-004)




                  Department of Defense
              Office of the Inspector General

                                    Constitution of
                                   the United States

      A Regular Statement of Account of the Receipts and Expenditures of all public
      Money shall be published from time to time.
                                                              Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DCWASA                District of Columbia Water and Sewer Authority
                           INSPECTOR GENERAL
                          DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                   October 15,2004
MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               NAVAL INSPECTOR GENERAL
               DIREC OR, NATIONAL GEOSPATIAL-INTELLIGENCE
                 AG CY         &
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               DIRECTOR, WASHINGTON HEADQUARTERS SERVICES
SUBJECT: Report on Promptness of FY 2005 First Quarter DoD Payments to the
         Department of the Treasury for District of Columbia Water and Sewer
         Services (Report No. D-2005-004)

        We are providing this report for your information and use. The report is one in a
series of audits we conducted in response to the requirements of Public Law 106-554, the
Consolidated Appropriations Act of 2001. No written response to the report was
required, and none was received. Therefore, we are publishing the report in final form.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Barbara A. Sauls at (703) 325-5782 (DSN 221-5782) or Ms. Monica M. Harrigan
at (703) 325-5930 (DSN 221-5930). See Appendix C for the report distribution. The
team members are listed on the inside of the back cover.



                                     ~ s s i s t binspector
                                                   t        General
                                  Defense Financial Auditing Service
          Office of the Inspector General of the Department of Defense
Report No. D-2005-004                                                   October 15, 2004

   (Project No. D2005FH-0025.000)

        Promptness of FY 2005 First Quarter DoD Payments to the
           Department of the Treasury for District of Columbia
                       Water and Sewer Services

                                    Executive Summary

Who Should Read This Report and Why? Individuals who have a direct interest in, or
are in need of information about, the promptness of water and sewer payments to the
District of Columbia may find pertinent information in this report.

Background. We conducted the audit to meet requirements of Public Law 106-554, the
Consolidated Appropriations Act of 2001. The Act requires the inspector general of each
Federal agency that receives water and sewer services from the District of Columbia to
report to the Congressional Appropriations Committees on the promptness of payments
within 15 days of the start of each quarter. The District of Columbia Water and Sewer
Authority supplies both water and sewer services to Federal agencies and DoD
Components within the National Capital Region. The Department of the Treasury is the
collection agent for Federal agencies and DoD Components’ water and sewer payments,
with the Department of the Treasury submitting a single payment to the District of
Columbia Water and Sewer Authority. The DoD Components, composed of 15 separate
installations, sites, and organizations, are required to make advance quarterly payments to
the Department of the Treasury for estimated bills on anticipated water use in FY 2005.
If the Components’ actual bill for use of water and sewer is lower than the estimated bill
for those services, they receive a credit 3 years after the payment, which is the time it
takes for billing reconciliation.

Results. All DoD Components, except Walter Reed Army Medical Center, promptly
made first quarter FY 2005 net payments totaling $1.2 million to the Department of the
Treasury for District of Columbia water and sewer services. The Department of the
Treasury stated that a payment will be made on behalf of Walter Reed Army Medical
Center on October 15, 2004, instead of October 1, 2004, as required by law. This late
payment is due to Walter Reed Army Medical Center having no established accounts for
FY 2005. Fort McNair, the Navy, Bolling Air Force Base, Washington Headquarters
Services and Walter Reed Army Medical Center were the only DoD Components
required to pay this quarter. The National Geospatial-Intelligence Agency and Arlington
National Cemetery have credit balances from prior overpayments and were not required
to make payments for the first quarter.

Management Comments. We provided a draft of this report on October 8, 2004. No
written response was required, and none was received. Therefore, we are publishing the
report in final form.
Table of Contents

Executive Summary                                                   i

Background                                                          1

Objective                                                           2

Finding
     DoD FY 2005 First Quarter Payments to the Department of
       the Treasury                                                 3

Appendixes
     A. Scope and Methodology                                       4
     B. DoD Customers of the District of Columbia Water and Sewer
          Authority                                                 5
     C. Report Distribution                                         6
Background
    This audit was required by Public Law 106-554, the Consolidated Appropriations
    Act of 2001. Public Law 106-554 states:
               Not later than the 15th day of the month following each quarter, the
               inspector general of each Federal department, establishment, or agency
               receiving water services [or sanitary sewer services] from the District
               shall submit a report to the Committees on Appropriations of the House
               of Representatives and the Senate analyzing the promptness of
               payment with respect to the services furnished to such department,
               establishment, or agency.

    This report covers FY 2005 first quarter payments and is one in a series of reports
    discussing the promptness of DoD payments to the Department of the Treasury
    for District of Columbia water and sewer services.
    The District of Columbia Water and Sewer Authority. The District of
    Columbia supplies both water and sewer services to Federal agencies and DoD
    Components within the National Capital Region. Since October 1996, the
    District of Columbia Water and Sewer Authority (DCWASA) has been
    responsible for delivery of water and sewer services to DoD Components.
    DCWASA provides meter readings and annual estimated billings to the
    Department of the Treasury for water and sewer services provided to the Federal
    agencies, including DoD Components.

    Department of the Treasury Responsibility. Under the District of Columbia
    Public Works Act of 1954, the Federal Government was to receive water and
    sewer services from the District of Columbia, and the District of Columbia was
    paid with an annual lump sum in accordance with the District of Columbia
    Appropriations Act. The District of Columbia Appropriations Act of 1990
    (Public Law 101-168) changed the payment process by designating the
    Department of the Treasury as the collection agent for the Federal agencies’ water
    and sewer payments, with the Department of the Treasury remitting a single
    quarterly payment to the District of Columbia. Public Law 106-554 amends the
    process Federal agencies use for making payments to the Department of the
    Treasury. When agencies do not forward timely payments of amounts that
    DCWASA bills, the Department of the Treasury is now authorized and directed to
    automatically withdraw funds from Federal agencies and provide those funds to
    DCWASA by the second day of each quarter. The Department of the Treasury
    bills Federal agencies and DoD Components annually for their estimated water
    and sewer use and makes quarterly payments to DCWASA based on meter
    readings and estimates DCWASA provides. The DoD Components are required
    to make quarterly payments to the Department of the Treasury for those annual
    estimated bills. See Appendix B for a list of DoD Components, composed of
    15 separate installations, sites, and organizations that received DCWASA
    services.

    Federal Agency Responsibility. Public Law 101-168 mandates responsibility to
    the respective Federal agencies for payment of water and sewer services. The
    funds for the DoD Components receiving water and sewer services come through
    each agency’s operating budgets and their respective appropriations bills for the


                                             1
    current fiscal year. Each quarterly payment is due to the U.S. Treasury account,
    “Federal Payment for Water and Sewer Services,” on the first day of the quarter.
    If the Components’ actual bill for use of water and sewer is lower than the
    estimated bill for those services, they receive a credit 3 years after the payment,
    which is the time it takes for billing reconciliation.


Objective
    The audit objective was to determine the promptness of DoD FY 2005 first
    quarter payments to the Department of the Treasury for District of Columbia
    water and sewer services. See Appendix A for a discussion of the scope and
    methodology and prior coverage related to the objective.




                                         2
                           DoD FY 2005 First Quarter Payments to
                           the Department of the Treasury
                           All DoD Components except Walter Reed Army Medical Center promptly
                           made first quarter FY 2005 net payments totaling $1.2 million to the
                           Department of the Treasury for District of Columbia water and sewer
                           services. The Department of the Treasury stated that a payment will be
                           made on behalf of Walter Reed Army Medical Center on October 15,
                           2004, instead of October 1, 2004, as required by law, because Walter Reed
                           Army Medical Center has no established accounts for FY 2005. Fort
                           McNair, the Navy, Bolling Air Force Base, and Walter Reed Army
                           Medical Center were the only DoD Components required to pay this
                           quarter. The National Geospatial-Intelligence Agency and Arlington
                           National Cemetery have credit balances totaling approximately $75,000
                           for the quarter from prior overpayments.*

As shown in the following table, DoD Components were billed $1.7 million, paid
$1.3 million (net payment $1.248 million), and had credits of approximately $75,000
from prior overpayments for the FY 2005 first quarter payments.


           DoD Components’ FY 2005 First Quarter Estimated Bills, Credits, and Payments
                                    (As of October 1, 2004)
                                                                                 $ in thousands
                                                                Estimated Bills             Quarterly               Average
                                                            Annual        Quarterly         Credits1                Quarterly
                                                                                                                   Amount Paid
    Washington Headquarters Services                    $     994          $   249                     $ 0               $ 249
    Arlington National Cemetery                                 0                 0                    (30)                 0
    Walter Reed Army Medical Center                          1,752             438                       0                  0
                    2
    Fort McNair                                                80               20                       0                 20
             3
    Navy                                                     1,858             464                       0                464
    Bolling Air Force Base                                   2,239             560                       0                560
    National Geospatial-Intelligence                            0                 0                    (45)               (45)
           Total                                            $6,923          $1,731                 $(75)           $1,2484
    1
        For FY 2005, Arlington National Cemetery and National Geospatial-Intelligence Agency received total credits of
        approximately $120,000 and $180,000, respectively, because of excess charges in prior years.
    2
        Fort McNair includes National War College and National Defense University Center.
    3
        Includes Anacostia Naval Station, Bellevue Naval Housing, Naval Observatory, Marine Corps Barracks (8th and I),
        Naval Research Laboratory, Nebraska Avenue Annex, and Washington Navy Yard.

    4
        Net payment.




*
    The Department of the Treasury stated that Arlington National Cemetery refuses to accept the quarterly
    Intra-governmental Payment and Collection transactions to obtain their credit[0]. The Department of the
    Treasury plans to issue a one time check payment to Arlington National Cemetery on July 2, 2005[0].



                                                                      3
Appendix A. Scope and Methodology
   We reviewed the billing information from the Department of the Treasury for
   DoD Components’ water and sewer services to establish the amounts billed. We
   contacted the Department of the Treasury to confirm that funds available to DoD
   Components were withdrawn to pay the District of Columbia for FY 2005 first
   quarter water and sewer bills.

   We performed this audit in October 2004 in accordance with generally accepted
   government auditing standards.

   We did not review management controls because the audit is required every
   3 months by statute and an audit of the management control program was reported
   on in Inspector General of the Department of Defense (IG DoD) Report
   No. D-2002-140.

   Use of Computer-Processed Data. We relied on the Intra-governmental
   Payment and Collection Documents provided by The Department of the Treasury.
   Nothing came to our attention as a result of specified procedures that caused us to
   doubt the reliability of the Computer-processed data.

   General Accounting Office High-Risk Area. The General Accounting Office
   has identified several high-risk areas in DoD. This report provides coverage of
   the DoD high-risk area identified as, “Confront and transform pervasive, decades-
   old financial management problems.”

   Prior Coverage. During the last 5 years, the IG DoD has issued 16 reports
   discussing the promptness of DoD payments to the Department of the Treasury
   for District of Columbia water and sewer services. Unrestricted IG DoD reports
   can be accessed at http://www.dodig.osd.mil/audit/reports.




                                        4
Appendix B. DoD Customers of the District of
            Columbia Water and Sewer
            Authority
According to DCWASA, the list below identifies the 15 DoD Components for which
DCWASA provided estimated bills to the Department of the Treasury for water and
sewer services during FY 2005.

      Army
       Arlington National Cemetery
       Fort McNair
       Walter Reed Army Medical Center
      Navy
       Anacostia Naval Station
       Bellevue Naval Housing
       Marine Corps Barracks (8th and I)
       Naval Observatory
       Naval Research Laboratory
       Nebraska Avenue Annex
       Washington Navy Yard

      Air Force
       Bolling Air Force Base

      Other Defense Organizations
       National Defense University Center
       National Geospatial-Intelligence Agency
       National War College
       Washington Headquarters Services




                                           5
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army
Commander, Walter Reed Army Medical Center
Director, Arlington National Cemetery

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Director, Field Support Activity

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Bolling Air Force Base

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, National Geospatial-Intelligence Agency
Director, Washington Headquarters Services

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Inspector General, Department of the Treasury




                                          6
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        7
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Defense Financial Auditing Service prepared this report. Personnel of
the Office of the Inspector General of the Department of Defense who contributed
to the report are listed below.

Paul J. Granetto
Barbara A. Sauls
Monica M. Harrigan
George B. West Jr.
Brantley Thomas Jr.
Carmen D. Ellis
Alisha Eze
Catherine Bird
